NO. 20-287
In the

Supreme Court of the United States
ERNEST JOHNSON,
Petitioner,
V.

ANNE L. PRECYTHE, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 23rd day of November, 2020, copies of the Reply Brief for the Petitioner
were sent to:
John D. Sauer
Solicitor General of Missouri
PO Box 899
Jefferson City, MO 65102
john.sauer@ago.mo.gov

Katharine Anne Dolin
Office of the Missouri Attorney General
PO Box 899
Jefferson City, MO 65102
katharine.dolin@ago.mo.gov
Respectfully submitted,

Arn Jacobsen

